           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




         FOLLOW-UP REVIEW
         OF CONTROLS OVER
   SUPPLEMENTAL SECURITY INCOME
        REPLACEMENT CHECKS

   September 2006   A-05-06-26058




 AUDIT REPORT
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 6, 2006                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up Review of Controls over Supplemental Security Income Replacement Checks
        (A-05-06-26058)


        OBJECTIVE

        Our objective was to determine the status of corrective actions the Social Security
        Administration (SSA) has taken to address the recommendations in our September
        2003 report, Controls Over Supplemental Security Income (SSI) Replacement Checks
        (A-05-03-13010).

        BACKGROUND
        In 1972, Title XVI of the Social Security Act (The Act) established the SSI program. 1
        SSI is a nationwide Federal cash assistance program administered by SSA that
        guarantees a minimum level of income to financially needy individuals who are aged
        blind or disabled. 2 SSI payments are financed from the general fund of the United
        States Department of the Treasury (Treasury). 3

        SSA has procedures to replace monthly SSI checks that recipients claim were not
        received. 4 Usually, when nonreceipt is reported, the payment is replaced with a
        courtesy disbursement/replacement check before Treasury determines the status of the
        original payment. 5 However, SSA may choose to direct Treasury to investigate the
        status of the original check before issuing a replacement check. This option can be
        exercised in two situations:

        1
            The Act § 1601, et seq.; 42 U.S.C. § 1381 et seq. See also 20 C.F.R. § 416.101 et seq.
        2
            Id.
        3
            Id.
        4
            SSA, Program Operations Manual System (POMS) GN 02406.002.B.
        5
            SSA, POMS GN 02406.150.A.
Page 2 - The Commissioner


•     SSA has information that an individual either misused or abused the replacement
      check process within the last 24 months, or

•     SSA has information that the individual is unsure if the check was received. 6

A double check negotiation (DCN) occurs when a person cashes two checks for the
same month in a 24-month period that results in an overpayment with no forgery
involved. Further investigation of the DCN is often needed to determine if both checks
were actually cashed by the representative payee or recipient (referred to by SSA as a
true DCN) or if forgery by an unauthorized individual was involved. 7

Our September 2003 audit determined that the number of DCNs and related
overpayments increased to a significant level in recent years. 8 We estimated that SSA
could realize about $137.5 million in program savings over a 5-year period if SSA took
additional actions to deter individuals from initiating multiple DCNs and recovered
related overpayments timely.

With regards to the recommendations in our September 2003 report, SSA agreed to:

•     Develop a national replacement check refresher training package for employees.

•     Work with the Office of the Inspector General (OIG) to build an Administrative
      Sanctions flag into the electronic Form SSA-8551 (OIG Referral of Potential
      Violation).

•     Support a study sponsored by Treasury to determine why Social Security
      beneficiaries and SSI check recipients are reluctant to sign up for direct deposit.

•     Develop action plans to assist field offices (FO) with high numbers of DCNs by
      improving front-end processing. Also, ensure that FOs refer individuals with multiple
      DCNs to the OIG for potential prosecution or, if declined, to regional offices (RO) for
      administrative sanctions.

•     Work with the Treasury’s Financial Management Service to obtain DCN information.




6
    SSA, POMS GN 02406.002.B.7.
7
 SSA, Administrative Message AM-06024 REV, Desk Guide for the Double Check Negotiation (DCN)
Process--Information, January 31, 2006, revised February 2, 2006, states that if an overpayment is being
collected for the DCN, then it is a true DCN.
8
    Controls over Supplemental Security Income Replacement Checks (A-05-03-13010), September 2003.
Page 3 - The Commissioner


RESULTS OF REVIEW
Our review disclosed that SSA implemented corrective actions to generally address the
recommendations in our September 2003 report. With respect to obtaining DCN
information from Treasury, SSA anticipates working with Treasury in Fiscal Year (FY)
2007 to develop a process to exchange DCN information.

While SSA took corrective actions, we found that SSA would benefit by taking additional
steps to prevent and recover DCN overpayments. During this follow-up audit, we
reviewed records for 338 SSI recipients who had 3 or more DCNs in a quarter during
the 12-month period ending March 31, 2005. We found that the SSI records did not
always contain the required remark about the case involving DCN abuse. Also, SSA
rarely followed procedures to recover DCN overpayments at the maximum allowable
rate. Furthermore, over one-third of the SSI recipients with multiple DCNs were under
the care of a representative payee. Also, we found that SSA seldom changed
representative payees even though they abused the DCN process.

CORRECTIVE ACTIONS TAKEN BY SSA ON PRIOR RECOMMENDATIONS

With respect to the recommendations in our 2003 report, we found that:

•   SSA conducted replacement check refresher training for its employees in December
    2004 via Interactive Video Training. The training emphasized true DCNs as well as
    the required inputs, messages, processing, and options to prevent multiple DCNs.
    The training also described the various system stop payment inputs and outlined the
    correct procedures for photocopy requests and the policy for unnegotiated checks.

•   SSA issued policy and procedures reminders for administrative sanctions. 9
    Additionally, an administrative sanctions flag was built into the electronic SSA-8551,
    OIG Referral of Potential Violation.

•   SSA participated in Federal initiatives to promote direct deposit and electronic
    transfers accounts. For example, SSA and Treasury sent payment envelope inserts
    that explained direct deposit to SSI recipients that receive benefits by mail.
    Additionally, SSA participated in a research study sponsored by Treasury to
    determine why Social Security beneficiaries and SSI check recipients are reluctant
    to sign up for direct deposit. According to SSA, the percentage of SSI payments that
    were issued by direct deposit increased from 51 percent in 2002 to almost
    56 percent in 2005.



9
  SSA issued emergency message EM-02118 Administrative Sanctions-Action on October 31, 2002, and
administrative message AM-06061 Administrative Sanctions-Reminder on March 10, 2006. SSA also
issued reminders in regional program circulars, such as CH 2003-058 Administrative Sanctions/Double
Check Negotiations on October 28, 2003 and KC 05-01 GS Administrative Sanctions and Nonreceipt on
February 24, 2005.
Page 4 - The Commissioner


•   SSA provided DCN data to the ROs on a regular basis for review and follow-up. We
    also found that some ROs provided updates to SSA Central Office on the actions
    taken to process the DCN data. Furthermore, staff at three of the four ROs we
    interviewed indicated that they further disseminated the DCN data to FOs for review
    and follow-up. For example, to address concerns about the volume of DCNs at one
    FO, staff at the Chicago RO instituted management review and approval procedures
    for all replacement check cases, and they requested that the FO report the actions
    taken every week until improvements were made.

•   SSA agreed to work with Treasury to obtain DCN information. However, SSA and
    Treasury have not yet developed a process to exchange DCN information.
    Moreover, SSA informed OIG that it plans to begin the planning and analysis for a
    DCN exchange process in FY 2007.

SSA’s efforts, including                                        Chart 1
the actions taken to                                        Total SSI DCNs
address our prior audit                   135,269         131,164
                                                                          125,313
recommendations, have                                                                     110,916
successfully reduced the
total number of SSI
DCNs. As shown in
Chart 1, the total number
of SSI DCNs decreased
18 percent from 135,269
in March 2002 to
110,916 in March 2005.
                                     April 2001 to   April 2002 to   April 2003 to   April 2004 to
                                     March 2002      March 2003      March 2004      March 2005



Despite the decline in total SSI DCNs, the number of one-time SSI DCNs increased
17 percent from 69,973 in March 2002 to 82,122 in March 2005, as shown in Chart 2.
Our review did not disclose why the
increase occurred. However,                                 Chart 2
SSA’s current procedures direct             One-Time DCNs Increased Since Last Audit
Treasury to determine the status of
                                                                    82,122
the original payment before a
replacement check is issued when
SSA has information that an                            69,973

individual either misused or abused

                                                         April 2001 to       April 2004 to
                                                         March 2002          March 2005
Page 5 - The Commissioner


the replacement check process within the last 24 months. For these one-time DCNs,
SSA would not have information on misuse or abuse. Therefore, SSA is limited in its
ability to prevent one-time DCNs.

REVIEW OF RECIPIENTS WITH THREE OR MORE DCNs

As part of this follow-up audit, we reviewed 338 records for SSI recipients who had 3 or
more DCNs in any quarter during the 12-month period ending March 31, 2005. These
recipients negotiated true DCNs that resulted in overpayments of $698,678. 10 We
found that the SSI records did not always contain the required remark about DCN
abuse. We also found that SSA rarely followed procedures to recover DCN
overpayments at the maximum allowable rate. Furthermore, we found that over one-
third of the SSI recipients with multiple DCNs were under the care of a representative
payee. However, we also found that SSA seldom changed representative payees even
though they abused the DCN process. The table below summarizes the number of
DCNs for the 338 SSI recipients.

                                    Number of DCNs           SSI Recipients
                                          3                       140
                                          4                       111
                                          5                        56
                                          6                        20
                                          7                        10
                                          8                         1
                                                Total             338

Remarks on the SSI Record

We found that for 93 of the 338 recipients in our review, the SSI record did not contain
the required remark about the case involving DCN abuse. 11 SSA policy states that the
phrase “DCN Abuse – Input as C-stop until mm/yy” should be added in the remarks field
if after 60 days an appeal is not filed or an overpayment is not protested. 12 SSA should
remind employees to enter appropriate remarks on SSI records that involve DCN
abuse.




10
     See Appendix C for a full discussion of the audit population.
11
  SSA, POMS GN 02406.150.A.2 states that “DCN Abuse Case – Input as C Stop until mm/yy” should be
added to the remarks field.
12
     SSA, POMS GN 02406.300.D.5.
Page 6 - The Commissioner


DCN Overpayment Recovery Rates

While SSA has taken overpayment recovery actions on the 338 recipients with DCN
overpayments, we found that SSA rarely applied the 100 percent recovery option. 13
Rather, SSA recovered the majority of the DCN overpayments at the minimum rate of
10 percent. 14 The following table summarizes the overpayment recovery rates for the
338 recipients at the time of our review.

                                 DCN Overpayment                         Number of
                                  Recovery Rates                         Recipients
                  Not recovered 15                                           19
                  Less than 10 percent (1 to 9 percent)                      20
                  At 10 percent                                            199
                  Greater than 10 percent (11 to 99 percent)                 60
                  At 100 percent                                             18
                  Installment and cross-program recovery                     21
                  Refund 16                                                   1
                                                               Total       338

SSA policy states that DCN overpayments can be collected at 100 percent if the
individual was determined to be at fault because he or she cashed both the original and
replacement check payments. 17 In February 2006, SSA instructed employees to
emphasize to recipients that “overpayments for cashing duplicate checks cannot be
waived” 18 and “100 percent withholding would apply.” 19 SSA should ensure that true
DCN overpayments are recovered at the 100 percent rate when feasible.




13
   SSA POMS SI 02220.016.A.2.e states that DCN overpayments are an exception to the 10 percent rate
of payment adjustment and should be recovered at 100 percent.
14
  The Act § 1631(b)(1)(B) provides that the rate of payment adjustment to recover SSI overpayments will
be lesser of 10 percent of the recipient’s total monthly income or the entire monthly benefit. See also
SSA, POMS SI 02220.016.A.
15
  We found 19 instances where SSA either (1) waived the DCN overpayment, (2) found the recipient
unable or unwilling to pay, or (3) considered the overpayment to be uncollectible.
16
     We found one instance where the recipient repaid SSA for the entire DCN overpayment.
17
     SSA, POMS SI 02220.016.A.2 and SI 02220.016.C.5.
18
  SSA, POMS SI 02201.005.A.5.c states that a waiver is a request for release from the responsibility of
repayment. See also POMS SI 02260.030.C.4.
19
  SSA, Administrative Message AM-06024 REV, Desk Guide for the Double Check Negotiation (DCN)
Process--Information, January 31, 2006, revised February 2, 2006.
Page 7 - The Commissioner


Representative Payee Determinations

Our review disclosed that 125 of the 338 SSI recipients with multiple DCN abuses
received benefits through a representative payee. As reflected in the table below, the
representative payee was a parent or relative for 110 of the 125 recipients. SSA
instructions state that a change in representative payee should be considered if the
payee caused the DCN. 20 However, we found that only 9 of 125 recipients had
representative payee changes following DCN abuse. We could not specifically attribute
the change in representative payee solely to multiple DCN abuse because SSA’s
Representative Payee System (RPS) only provides generic descriptions of the reason a
representative payee is terminated, such as "Direct Payment," "More Suitable Payee,"
or "Custody Change." The RPS does not state that the change in representative payee
was due to DCN abuse. SSA should remind employees to consider a representative
payee change to avoid future DCNs when the representative payee abuses the
replacement check process.

                                 Representative         SSI
                                       Payee         Recipients
                               Parent                   84
                               Grandparent               6
                               Spouse                    2
                               Child                     1
                               Relative                 17
                               Agency/Organization       6
                               Other                     9
                                             Total     125



CONCLUSION AND RECOMMENDATIONS
We recognize that SSA has taken actions to address the recommendations in our prior
report. However, SSA would benefit by taking additional steps to prevent and recover
DCN overpayments. Therefore, we recommend that SSA:

       1. Work with Treasury to design and implement a process to exchange DCN
          information.

       2. Remind FO employees to enter the required remarks on SSI records that involve
          DCN abuse.




20
     Id.
Page 8 - The Commissioner


   3. Ensure that true DCN overpayments are recovered at the 100 percent rate when
      feasible.

   4. Remind FO employees to determine if a change in the representative payee is
      warranted when DCN abuse is confirmed.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Population and Review Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
The Act    Social Security Act
C.F.R.     Code of Federal Regulations
DCN        Double Check Negotiation
FO         Field Office
OIG        Office of the Inspector General
POMS       Program Operations Manual System
RO         Regional Office
RPS        Representative Payee System
SSA        Social Security Administration
SSI        Supplemental Security Income
SSR        Supplemental Security Income Record
TCIS       Treasury Check Information System
Treasury   United States Department of the Treasury
U.S.C.     United States Code
                                                                              Appendix B

Scope and Methodology
To accomplish our objective we:

    •   Reviewed pertinent sections from:
           ▪ Program Operations Manual System GN 02402, GN 02406, GN 02604,
             SI 02201, SI 02220, SM 01315, and SM 01601
           ▪ 20 Code of Federal Regulations Sections 416.101 and 416.110
           ▪ 42 United States Code Sections 1381 and 1383
           ▪ Sections 1601 and 1631 of The Social Security Act

    •   Reviewed the Social Security Administration (SSA) Office of the Inspector
        General audit report Controls Over Supplemental Security Income Replacement
        Checks (CIN: A-05-03-13010).

    •   Interviewed SSA staff from the Office of the Deputy Commissioner for Operations
        to determine the status of corrective actions SSA took on the prior audit
        recommendations. We also interviewed staff at the Atlanta, Chicago, Dallas, and
        San Francisco Regional Offices. We selected the four regions with the highest
        number of double check negotiation (DCN) occurrences in their respective
        service areas during April 2004 through March 2005. Additionally, we
        interviewed SSA field office staff at the Memphis (Downtown) and Milwaukee
        (North) offices.

    •   Reviewed SSA replacement check trend information for the period April 2001
        through March 2005.

    •   Obtained four quarterly data files from the Office of Operations of Supplemental
        Security Income recipients who had DCNs from April 2004 through March 2005,
        and reviewed Supplemental Security Income Records (SSR) for recipients with
        three or more DCNs. 1

We conducted our audit in Chicago, Illinois; Memphis, Tennessee; and Milwaukee,
Wisconsin between October 2005 and March 2006. We determined that the data used
for this audit were sufficiently reliable to meet our audit objectives. The entity audited
was the Office of Operations. We conducted our audit in accordance with generally
accepted government auditing standards.
1
 We relied on the overpayment amount that was posted by SSA on the SSR; therefore, we did not
determine if the posted overpayments were accurate.
                                                                    Appendix C

Population and Review Results
Social Security Administration (SSA) provided 4 quarterly double check negotiation
(DCN) files which contained 110,916 DCNs that occurred during the audit period
April 2004 through March 2005. The file contained 383 unique Social Security numbers
(SSN) for Supplemental Security Income recipients with 3 or more DCN occurrences in
any quarter between April 2004 and March 2005.

We reviewed the Supplemental Security Income Records (SSR) for all 383 recipients.
We also reviewed the SSR fields that contained remarks, direct deposit information,
representative payee (if any), payment history, and overpayment/recovery decisions.

We found that the number of DCN occurrences for the 383 records in the data file we
obtained from SSA corresponded with the DCNs recorded on each recipient’s SSR
records. However, we noted that in couples' cases, SSA combined the total number of
DCNs for both spouses under the SSN of one member of the couple. Consequently, if
both members of a couple had three or more DCNs during the audit period both
individuals were included in our review; however, if neither spouse had three or more
DCNs during the audit period, we excluded both cases in our review. As a result, we
added 2 spouses and excluded 47 couples from our universe, resulting in an audit
population of 338 recipients.
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      August 30, 2006                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-Up Review of Controls Over
           Supplemental Security Income Replacement Checks" (A-05-06-26058)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “FOLLOW-UP REVIEW OF CONTROLS OVER SUPPLEMENTAL
SECURITY INCOME REPLACEMENT CHECKS”
(A-05-06-26058)

Thank you for the opportunity to review and provide comments on this draft report. Historically,
double check negotiation (DCN) has been a difficult issue. One of the difficulties is that there is
a lag period between the time a beneficiary/recipient alleges non-receipt and the time that it takes
the Department of Treasury (Treasury) to make a forgery determination, which is necessary for
SSA to determine whether a true DCN exists.

In October 1997, a new non-receipt policy was established as a result of the Robinson-Reyf
Settlement Agreement. The policy change required that SSA process a request for a replacement
check to be released immediately for non-receipt of recurring present month and previous month
benefit checks when DCN abuse was not present. If the beneficiary/recipient is unable to
determine if a benefit check was received and they are a known and proven abuser of the non-
receipt reporting system, SSA forwards the replacement check request to Treasury to determine
the status of the first check before a replacement check is issued. In March 2003, additional
changes to the procedure were released in an Emergency Message (EM) 03028 and are now
reflected in the Telephone Support Center Operating Guide. This change shows how the
800-number agents process non-receipt allegations when a DCN abuse alert message is indicated
on the Supplemental Security Record (SSR). When the alert message is present, agents should
determine if the DCN date is within the 24-month period. If it is, then agents should send the
request for a replacement check to Treasury for investigation.

Additionally, in February 2006 a desk guide, DCN Process, was released via an Administrative
Message (AM) 06024-REV. This desk guide was created as a result of the Cooperative Efforts
Workgroup, which completed a project to review the DCN process in the Program Service
Centers, Field Offices (FO) and Teleservice Centers. The purpose of the review was to ascertain
best practices and promote adoption of these best practices. The review identified best practices
to improve control mechanisms and to improve inter-component coordination. Process flaws
were also identified that could contribute to claimant abuse of the DCN process. We believe that
these findings, which have been incorporated into the 2006 desk guide, will be a valuable tool in
reducing employee time in handling DCN situations as well as reducing the number of duplicate
payments being issued.

Recommendation 1

Work with Treasury to design and implement a process to exchange DCN information.

Comment

We agree. We are currently awaiting the availability of Treasury resources to discuss this
proposed interface. Treasury currently is working on the implementation of the Treasury Check
Information System.




                                                D-2
Recommendation 2

Remind Field Office (FO) employees to enter the required remarks on Supplemental Security
Income records that involve DCN abuse.

Comment

We agree. We have reminded FO employees of the proper procedures for annotating the system
regarding DCN abuse through EM-03028 (March 2003), AM-06024 REV (January 2006) and
Interactive Video Training (December 2004) on the non-receipt and DCN issues.

Recommendation 3

Ensure that true DCN overpayments are recovered at the 100 percent rate when feasible.

Comment

We agree. The current policy allows the FO discretion in whether to apply 100 percent
withholding and does not make it mandatory. We will release an AM to remind FO employees
of the current withholding policy of 100 percent where the beneficiary/recipient was determined
to be at fault unless the FO determines 100 percent withholding to be inappropriate. The FOs are
in the best position to assess the impact on the beneficiary to determine an appropriate
percentage withholding for repayment of a DCN.

Recommendation 4

Remind FO employees to determine if a change in representative payee is warranted when DCN
abuse is confirmed.

Comment

We agree. We will release an AM to remind FOs to determine if a change in representative
payee is warranted in all cases where DCN abuse is confirmed. It should be noted that 84 of the
125 representative payee cases in this review were the parents of the beneficiary. It may not be
feasible to change a payee when the current payee is very high on the representative payee
preference list unless SSA has established misuse beyond a doubt.

Early this year, we developed a proposal to consider an automated way to create a “smart alert”
system to notify technicians of identified DCN abusers. Currently, the proposal is under review
for consideration of development. If we are successful in finding a way to identify DCN abusers
through automation, we can establish a set of concrete rules governing DCN abusers which can
include a mandate that a determination be made as to whether a change in representative payee is
warranted in all cases where DCN abuse is confirmed.




                                              D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Chicago Audit Division (816) 936-5591

   Teresa S. Williams, Audit Manager, Chicago, Illinois (312) 353-0331

Acknowledgments

In addition to those named above:

   Elizabeth Juárez, Auditor-in-Charge

   Kenneth Bennett, Information Technology Specialist

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-05-26058.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
